Inspections Report I-99-13
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
Inspections Division
Inspection of the Cruise
Ship Exemption From
Immigration User Fees
Report Number
I-99-13
September 1999
TABLE OF CONTENTS
INTRODUCTION
BACKGROUND
The Role of User Fees in the
Inspection Process
A Legislative History of the
Immigration User Fee
The Seaport Inspection Process
The Caribbean Market
The Growth of the Cruise Industry
ISSUES
SUPPORT FOR REMOVING THE
EXEMPTION
The exemption from payment of
the user fee by cruise ship passengers creates an inequity.
The user fees paid by airline
passengers are funding the majority of cruise ship inspections.
The Immigration User Fee
Account will be unable to fully fund inspections in Fiscal Year 2000.
The projected growth of the
cruise industry will increase demands on INS and affect INSs ability to provide
inspection services.
SUPPORT FOR RETAINING THE
EXEMPTION
U.S. citizens on cruise ships are
not required to undergo a thorough inspection process.
Non-U.S. citizen passengers
frequently have been inspected at U.S. air ports-of-entry prior to boarding the ship.
Cruise passengers present a low
risk.
Cruise personnel assist in the
inspection process.
CONCLUSION
Appendix I - Methodology and
Scope
Appendix II - The Immigration
User Fee Account
* * * * *
September 29, 1999
MEMORANDUM FOR   DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
ROBERT L. ASHBAUGH
ACTING INSPECTOR GENERAL
SUBJECT:
Inspection of the Cruise Ship Exemption From Immigration
User Fees, Report Number I-99-13
The Office of the Inspector General (OIG), Inspections Division, in response to a
request from the Immigration and Naturalization Service (INS), has conducted a review of
whether INS is justified in continuing its effort to remove the exemption from payment of
the immigration user fee extended to certain cruise ship passengers. Since 1995, INS has
sought to remove the exemption, first in proposals for immigration reform legislation and
subsequently in annual appropriations requests. To date, INS has been unsuccessful.
Each passenger, unless specifically exempted by law, must pay a $6 immigration user fee
for inspection services provided at an air or sea port-of-entry prior to being allowed
entry into the United States. The travel agency or commercial carrier that issues the
ticket to the passenger collects and remits the user fee for deposit into the Immigration
User Fee Account (IUFA). The IUFA provides the sole source of funding for all operational,
detention, administrative, and infrastructure costs related to INS inspection operations
at air and sea ports-of-entry. IUFA obligations are exceeding receipts, and INS projects
the IUFA deficit will reach $54 million by Fiscal Year (FY) 2000.
We conclude that INS is justified in continuing its effort to remove the exemption from
user fees for cruise ship passengers who receive an inspection service. In 1990, Congress
removed a similar exemption for airline passengers, citing a fundamental
inequity that prevented the charging of all air passengers equally. It is reasonable
for INS to expect payment for inspection services provided, regardless of whether the mode
of transportation used by the passenger is an air or sea carrier. Since FY 1994, cruise
ship passengers have accounted for 9.48 percent of all INS inspections at air and sea
ports-of-entry, yet have contributed 0.59 percent of the fees collected. The growth in the
cruise industry and the projected deficit in the IUFA will make it increasingly difficult
for INS to cover the costs of providing air and sea inspections while maintaining a level
of service acceptable to both INS and the industry.
Weighing against removing the exemption is the likelihood that cruise ship passengers
present a low risk of attempted illegal entry. In addition, many non-U.S. citizen
passengers will have been inspected upon arrival at air ports-of-entry prior to boarding
the cruise ship. Therefore, these passengers have already been deemed eligible to enter
the United States. Regardless of the degree of risk, the law requires INS to inspect
non-U.S. citizens each time they attempt entry into a U.S. port. Because of this
requirement, it is reasonable for INS to expect payment of a user fee for the inspection
service it provides.
Removing the exemption for cruise passengers should ultimately serve the interests of
both the cruise industry and INS. The additional user fees collected should assist in
covering the increasing cost of conducting inspection operations. It is important to note,
however, that the removal of the exemption for cruise ship passengers is insufficient to
provide INS with a long-term solution to shortages in the IUFA. Therefore, INS must seek
additional solutions to address the projected IUFA funding crisis or examine the issues
related to the increasing costs of providing inspection services at air and sea
ports-of-entry.
We appreciate the cooperation that your staff extended to us as we conducted our
review. If you have any suggestions of how we might improve our review process, or if we
can provide you with any additional information, please let us know.
Attachment
cc:   Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Departmental Audit Liaison Office
#####